HHS/OIG-AUDIT--Clinical Laboratory Services Provided Under the Illinois Medicaid Program (A-05-95-00062)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Clinical Laboratory Services Provided Under the Illinois Medicaid Program,"
(A-05-95-00062)
December 27, 1996
Complete Text of Report is available in PDF format
(1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of the Illinois Department of
Public Aid (State agency) concerning reimbursement for clinical laboratory services
under the Medicaid program for Calendar Years (CY) 1993 and 1994. This report
is part of our nationwide review of Medicaid payments for laboratory services.
The objective of our review was to determine the adequacy of procedures for
payment of clinical laboratory claims. Specifically, the audit is designed to
determine whether Medicaid payments for chemistry and hematology tests exceeded
amounts recognized by Medicare for the same tests or were duplicated. In doing
so, we identified tests that were not grouped together (bundled into a panel
or profile) for payment purposes. Proper grouping of tests helps to ensure that
Medicaid agencies do not reimburse medical providers more for clinical laboratory
tests than the amounts Medicare recognizes for the same services.
Our audit disclosed that the State agency did not have certain controls in
place to detect and prevent Medicaid payments for laboratory tests in excess
of what program guidelines allow. According to the State Medicaid Manual, payment
for clinical laboratory tests under the Medicaid program cannot exceed the amount
recognized by Medicare. These excessive payments occurred because the State
agency was paying a higher price for individual tests than they would have if
the tests had been bundled into lower cost panels and profiles. Although the
State agency established a system of edits which covered the majority of procedure
codes included in our review, the absence of certain edits allowed some improper
payments to be made to providers. Our findings are primarily related to two
conditions. Specifically, the State agency's claims processing system did not
edit for three chemistry procedure codes which the Illinois Medicare carrier
bundles into a panel and it did not deny payment for hemogram indices claimed
with hemogram profiles. In addition, the State agency's policies and its instructions
to providers did not require that the three chemistry procedures in our finding
be bundled or specify which hematology procedure codes were duplicative.
We randomly selected a stratified sample of 100 instances involving claims
with potential payment errors from a population of 318,051 instances that were
extracted from the State agency's CYs 1993 and 1994 paid claims files. We found
that 79 of the 100 sampled items were overpaid. Each instance represents a potential
payment error in which the State agency paid a provider for clinical laboratory
tests (on behalf of the same beneficiary on the same date of service) on an
individual test basis, instead of as part of a group, or for tests which were
duplicative of each other. Projecting the results of our statistical sample
to the population using standard statistical methods, we estimate the State
agency overpaid providers $2,194,072 (Federal share $1,097,036) for chemistry
and hematology tests. At the 90 percent confidence level, the precision of this
estimate is plus or minus $463,671 (21.13 percent).
State agency officials indicated that the three chemistry procedures were not
bundled because the tests are not listed as automated, multichannel tests for
bundling according to the Physicians' Current Procedural Terminology (CPT) guidelines.
With respect to hemogram indices claimed with hemogram profiles, the State agency
relied on the CPT which defines these procedures as "additional" indices.
We were advised that instructions to providers are being updated and will be
issued in the next year.
We are recommending that the State agency: (1) ensure that its edits detect
and prevent payments for unbundled tests and duplicative tests by addressing
the specific overpayment causes enumerated in this report; (2) update and clarify
its policies and instructions to providers to include additional procedures
which are subject to edits for unbundled and duplicate tests; (3) determine
the amount of potential overpayment by provider and obtain recoveries of actual
overpayments from those providers with the largest total potential overpayments;
and (4) make adjustments for the Federal share of the amounts recovered by the
State agency on its Quarterly Report of Expenditures to the Health Care Financing
Administration (HCFA). Based on our audit, we estimate that $2,194,072 (Federal
share $1,097,036) could be recovered from all providers for CYs 1993 and 1994.
State agency officials do not agree the two primary findings resulted in overpayments
during the audit period. State agency officials do not intend to change their
edits or policies for the three chemistry procedures because they believe Medicaid
regulations, the CPT handbook, and recent Medicare guidance do not require these
procedures to be bundled. For the audit period, the hemogram indices were not
considered duplications of hemogram profiles based on recommendations from the
State agency's physician consultants and the CPT handbook. Although the projected
overpayments did not pertain to several chemistry procedures (see page 6), the
State agency agreed it would identify overpayments related to these procedures
and refund the Federal share, when recovered.
We believe the two primary findings resulted in overpayments based on Medicaid
rules and CPT definitions which existed during the audit period. The State Medicaid
Manual precludes paying more for laboratory tests than Medicare pays. The Illinois
carrier determined that laboratories frequently perform the three chemistry
procedures as part of a panel and, therefore, required these tests be bundled
and reimbursed at the lower panel fee since at least 1987. When the State agency
reimburses these tests individually rather than as a panel, it pays more than
Medicare. By CPT definition, the two hemogram indices duplicate automated hemogram
profiles and, thus, should not be reimbursed when claimed with a profile.